DOCKET NO. 20-6533
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
═════════════════════════════════

GROVER REED,
Petitioner,
vs.
STATE OF FLORIDA,

Respondent.
═════════════════════════════════
═══════════════════════════════════════

REPLY TO RESPONDENT’S BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
═══════════════════════════

*Martin J. McClain
Fla. Bar No. 0754773
141 NE 30th Street
Wilton Manors, FL 33334
(305) 984-8344
martymcclain@comcast.net
Counsel for Petitioner

*COUNSEL OF RECORD

TABLE OF CONTENTS
PAGE
TABLE OF CONTENTS. . . . . . . . . . . . . . . . . . . .

i

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

ii

REPLY TO THE BRIEF IN OPPOSITION AND REASONS FOR DENYING
THE WRIT. . . . . . . . . . . . . . . . . . . . . . . . . . .
1.

The Brief in Opposition (BIO) ignores the Questions
Presented by Mr. Reed and poises entirely different
questions than the ones raised by Mr. Reed. . . . .

1

1

2.

The BIO fails to recognize that the first two questions
set out in the Petition concern the Due Process
Clause of the Fourteenth Amendment and its
requirement that the State must prove each element of
the criminal offense beyond a reasonable doubt . .
3

3.

Respondent erroneously assumes that the issues raised
in the Petition only concern the Sixth Amendment right
to a jury trial. . . . . . . . . . . . . . . . . .
4

4.

The BIO erroneously contends that Ring v. Arizona and
Schriro v. Summerlin resolved the questions that
Respondent set out as presented by Petitioner. But,
those decisions addressed the Sixth Amendment’s right
to a jury trial. They did not address or consider the
Due Process Clause and its requirement that the State
must prove beyond a reasonable doubt the existence of
each element of a criminal offense. . . . . . . .
7

5.

The BIO falsely claims that the “theory” underlying the
Petition “turns entirely on state law.” . . . . . 10

6.

The BIO erroneously asserts that the Florida Supreme
Court’s decision in State v. Poole receding from Hurst
v. State precludes consideration of Mr. Reed’s
petition. However contrary to Respondent, the ruling in
Poole demonstrates a split within the Florida Supreme
Court as to how to apply Apprendi. . . . . . . . . 15

i

7.

Florida’s substantive law was altered by Hurst v. State
ruling that statutorily identified facts were elements
of a higher degree of murder, and that ruling was
applied to capital cases with homicides committed
before 1986. . . . . . . . . . . . . . . . . . . . 19

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . .

20

CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . . .

20

ii

TABLE OF AUTHORITIES
PAGE
Apprendi v. New Jersey,
530 U.S. 466 (2000). . . . . . . . . . .

3.4,10,12,13,16,17

Blakely v. Washington,
542 U.S. 296 (2004). . . . . . . . . . . . . . . . .

12,13

Card v. Jones,
219 So. 3d 47 (Fla. 2017). . . . . . . . . . . . . . . .

20

DeStefano v. Wood
392 U.S. 631 (1968). . . . . . . . . . . . . . . . . . .

9

Florida v. Hurst,
137 S.Ct. 2161 (2017). . . . . . . . . . . . . . . . . .

15

Hankerson v. North Carolina,
432 U.S. 233 (1977). . . . . . . . . . . . . . . . . . .

6

Hurst v. State,
202 So. 3d 40 (Fla. 2016). . . . .

5,6,13,14,15,16,17,18,19

In re Winship,
397 U.S. 358 (1970). . . . . . . . . . . . . . .

3,4,5,6,7

Ivan V. v. City of New York,
407 U.S. 203 (1972). . . . . . . . . . . . . . . . . . .

6

Jackson v. Virginia,
443 U.S. 307 (1979). . . . . . . . . . . . . . . . . 3,4,7,9
Johnson v. State,
205 So. 3d 1285 (Fla. 2016). . . . . . . . . . . . . . .

20

Mills v. Moore,
786 So. 2d 532 (Fla. 2001) . . . . . . . . . . . . . . .

19

Mosley v. State,
209 So. 3d 1248 (Fla. 2016). . . . . . . . . . . . . . .

18

iii

Mullaney v. Wilbur,
421 U.S. 684 (1975). . . . . . . . . . . . . . . . . .

5, 6

Perry v. State,
210 So. 3d 630 (Fla. 2016) . . . . . . . . . . . . . . .
Ring v. Arizona,
536 U.S. 584 (2002). . . . . . . . . . . . . . . . . .
Schriro v. Summerlin,
542 U.S. 348 (2004). . . . . . . . . . . . . . . . .

14

7,8

7,8,10

State v. Jackson,
306 So. 3d 936 (Fla. 2020) . . . . . . . . . . . . . . .

18

State v. Okafor
306 So. 3d 930 (Fla. 2020) . . . . . . . . . . . . . . .

18

State v. Poole,
297 So. 3d 487 (Fla. 2020) . . . . . . . . . .

16,17,18,19

State v. Steele,
921 So. 2d 538 (Fla. 2005) . . . . . . . . . . . . . . .

19

State v. Towery,
64 So. 3d 828 (Ariz. 2003) . . . . . . . . . . . . . . .

8

iv

DOCKET NO. 20-6533
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
═════════════════════════════════

GROVER REED,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
═════════════════════════════════
═══════════════════════════════════════

REPLY TO RESPONDENT’S BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
═══════════════════════════

Petitioner, GROVER REED, files his reply to the State’s
Brief in Opposition to his Petition for Writ of Certiorari under
Rule 15.6 of this Court’s rules.
REPLY TO THE BRIEF IN OPPOSITION AND
RESPONDENT’S ASSERTED REASONS FOR DENYING THE WRIT
1.

The Brief in Opposition (BIO) ignores the Questions
Presented by Mr. Reed and poises entirely different
question than the ones raised by Mr. Reed.

Rather than address the Questions Presented set forth in the

1

Petition head on, the Brief in Opposition (BIO) obfuscates. The
BIO sets out two Questions Presented that are not the Questions
Presented set out in the Petition. The BIO does not say it is
restating Mr. Reed’s Questions Presented or otherwise reference
the Mr. Reed’s Questions Presented. The BIO substitutes entirely
new questions in lieu of those in the Petition.
In offering “Questions Presented” that are not the ones
raised in the Petition, Respondent pretends that issues raise are
about who decides whether the statutorily identified facts exist,
not what Petitioner has raised, i.e. the State’s burden of
proving elements beyond a reasonable doubt when those elements
must be found for a conviction of the higher degree of murder for
which a death is an authorized sentence. While the Sixth
Amendment right to a jury trial concerns who is the factfinder,
the Due Process Clause requires the State to carry a very high
burden of proof in order to insure reliability of a conviction.
Rule 14(1)(a) of the Rules of the United States Supreme
Court provides that: “Only the questions set out in the petition,
or fairly included therein, will be considered by the Court.”
Rule 15 of those same rules, which addresses Briefs in Opposition
and their content, does not authorize Respondent to raise new or
different questions presented. The BIO’s Questions Presented are
2

not to be considered according to the rules of this Court.
2.

The BIO fails to recognize that
set out in the Petition concern
of the Fourteenth Amendment and
the State prove each element of
beyond a reasonable doubt.

the
the
its
the

first two questions
Due Process Clause
requirement that
criminal offense

In Apprendi v. New Jersey, 530 U.S. 466 (2000), a statute
was challenged on two grounds: 1) it denied the defendant of his
Sixth Amendment right to a jury trial on all the elements of the
charged criminal offense, and 2) it violated the Due Process
Clause of the Fourteenth Amendment because it relieved the State
of its burden of proving each element of a criminal offense
beyond a reasonable doubt. The Due Process Clause challenge was
based upon In re Winship, 397 U.S. 358, 364 (1970) (“we
explicitly hold that the Due Process Clause protects the accused
against conviction except upon proof beyond a reasonable doubt of
every fact necessary to constitute the crime with which he is
charged.”). See Jackson v. Virginia, 443 U.S. 307, 315 (1979)
(“The standard of proof beyond a reasonable doubt, said the Court
[in Winship], ‘plays a vital role in the American scheme of
criminal procedure,’ because it operates to give ‘concrete
substance’ to the presumption of innocence to ensure against
unjust convictions, and to reduce the risk of factual error in a
criminal proceeding.”).
3

Apprendi noted that both of the constitutional provisions at
issue were activated as to the elements of a criminal offense,
but not as to the matters which were sentencing factors. Apprendi
developed a test for distinguishing an element from a sentencing
factor:
At stake in this case are constitutional protections of
surpassing importance: the proscription of any
deprivation of liberty without “due process of law,”
Amdt. 14, and the guarantee that “[i]n all criminal
prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury,” Amdt.
6.
Apprendi v. New Jersey, 530 U.S. 466, 476-77 (2000).
Petitioner’s first two Questions Presented concern the Due
Process Clause and whether the Florida Supreme Court’s ruling
properly protected and honored the Petitioner’s rights guaranteed
by the Due Process Clause under In re Winship and its progeny.
See Jackson v. Virginia, 443 U.S. at 333 (Stevens, J., concurring
in judgment) (“the reasonable-doubt standard has the desirable
effect of significantly reducing the risk of an inaccurate
factfinding and thus of erroneous convictions, as well as of
instilling confidence in the criminal justice system.”)
3.

Respondent erroneously assumes that the issues raised in the
Petition only concern the Sixth Amendment right to a jury
trial.
Respondent asserts that all the findings of fact that were
4

statutorily required to increase the severity of the authorized
punishment and were recognized in Hurst v. State as elements were
found by the judge before he imposed the death sentence on Mr.
Reed (BIO at 16). Based on that, Respondent asserts that Hurst v.
State did not change alter Florida’s substantive law and that the
findings were already made, just by a judge, not by a jury. (BIO
at 16-17). Respondent does not seem to get that the State was not
required to prove the statutorily identified facts beyond a
reasonable doubt as Winship required as to all elements of a
criminal offense. See Mullaney v. Wilbur, 421 U.S. 684, 685
(1975) (“the due process requirement, as defined in In re
Winship, 397 U.S. 358, 364, (1970), [is] that the prosecution
prove beyond a reasonable doubt every fact necessary to
constitute the crime charged.”).
The BIO ignores the fact if the statutorily identified facts
are elements of a greater offense, they must be proven by the
State like any other element of a criminal offense, beyond a
reasonable doubt. If they are elements they go to the defendant’s
guilt of the greater criminal offense. The proof beyond a
reasonable doubt standard was first recognized in Winship and
Mullaney as required by the Due Process Clause. Because proof
beyond a reasonable doubt has been viewed as significantly
5

reducing the risk of inaccurate factfinding and of erroneous,
Winship and Mullaney were held to be fully retroactive. Ivan V.
v. City of New York, 407 U.S. 203, 205 (1972) (“Plainly, then,
the major purpose of the constitutional standard of proof beyond
a reasonable doubt announced in Winship was to overcome an aspect
of a criminal trial that substantially impairs the truth-finding
function, and Winship is thus to be given complete retroactive
effect.”); Hankerson v. North Carolina, 432 U.S. 233, 242 (1977)
(“In Mullaney, as in Winship, the rule was designed to diminish
the probability that an innocent person would be convicted and
thus to overcome an aspect of a criminal trial that
‘substantially impairs the truth-finding function.’”).
In Mr. Reed’s case as the Respondent acknowledges that the
statute did not permit a death sentence to be imposed based only
on the verdict finding Mr. Reed guilty of first degree murder.
The judge was required to find additional facts before he can
impose a death sentence. If the findings are not reduced to
written within 30 days of the judgment, the judge must impose a
life sentence. Because the additional facts that the judge had to
find were not viewed as determinitive of the defendant’s guilt of
capital murder prior to Hurst v. State, the State was not held to
the proof beyond a reasonable doubt burden of proof. Prior to
6

Hurst v. State, the Florida Supreme Court see the additional as
elements subject to the proof beyond a reasonable doubt standard
and did not recognize that the sufficiency of the evidence to
support those facts was a matter to be addressed the direct
appeals and evaluated under the standard of review that was
dictated by Winship. Jackson v. Virginia, 443 U.S. at 318 (“After
Winship the critical inquiry on review of the sufficiency of the
evidence to support a criminal conviction must be not simply to
determine whether the jury was properly instructed, but to
determine whether the record evidence could reasonably support a
finding of guilt beyond a reasonable doubt.”).
4.

The BIO erroneously contends that Ring v. Arizona and
Schriro v. Summerlin resolved the questions that Respondent
set out as presented by Petitioner. But, those decisions
addressed the Sixth Amendment’s right to a jury trial. They
did not address or consider the Due Process Clause and its
requirement that the State must prove beyond a reasonable
doubt the existence of each element of a criminal offense.
Respondent asserts that “Petitioner’s theory is inconsistent

with Schriro [v. Summerlin, 542 U.S. 348 (2004)]”. (BIO at 17).
In Schriro, this Court considered whether the holding in “Ring v.
Arizona, 536 U.S. 609 (2002), applies to cases already final on
direct review.” 542 U.S. at 349. The holding of Ring that was the
subject of the retroactive analysis was identified in the
following fashion: “Ring held that ‘a sentencing judge, sitting
7

without a jury, [may not] find an aggravating circumstance
necessary for imposition of the death penalty.’” Schriro, 542
U.S. at 353, quoting Ring, 536 U.S., at 609. This holding “rested
entirely on the Sixth Amendment's jury-trial guarantee.” Schriro,
542 U.S. at 353.
In determining that the Ring holding did not warrant
retroactive application, Schriro cited to the Arizona Supreme
Court decision in State v. Towery, 64 P.3d 828 (Ariz. 2003).
There, the Arizona Supreme Court held that Ring did not warrant
retroactive application because:
Ring [v. Arizona] changed neither the underlying
conduct that the state must prove to establish that a
defendant's crime warrants death nor the state's burden
of proof; it affected neither the facts necessary to
establish Arizona's aggravating factors nor the state's
burden to establish the factors beyond a reasonable
doubt. Instead, Ring [v. Arizona] altered who decides
whether any aggravating circumstances exist[.]
Towery, 64 P.3d at 391 (emphasis added).
The Arizona statute provided that before a judge could
impose a death sentence on a defendant convicted of first degree
murder, the judge must first finding that the State had proven
one aggravating circumstance beyond a reasonable doubt. In
Arizona, the effect of Ring was to require the jury, instead of
the judge, to find that the State had proven one aggravating

8

circumstance beyond a reasonable doubt.
Given this limited effect of the holding in Ring, this Court
in Schriro concluded that Ring’s retroactivity turned on “whether
judicial factfinding so ‘seriously diminishe[s]’ accuracy that
there is an ‘“impermissibly large risk”’ of punishing conduct the
law does not reach.” Schriro, 542 U.S. at 355-56. The Court
explained that because it was not clear that “juries are better
factfinders at all, [it could not] confidently say that judicial
factfinding seriously diminishes accuracy.” Id. at 356. Thus,
Schriro “concluded that ‘[t]he values implemented by the right to
jury trial would not measurably be served by requiring retrial of
all persons convicted in the past by procedures not consistent
with the Sixth Amendment right to jury trial.’” Id. at 357,
quoting DeStefano v. Woods, 392 U.S. 631, 634 (1968).
But, the issue here concerns the requirement that for a
conviction of a criminal offense to be returned, the State must
bear the burden of proving each element of the offense beyond a
reasonable doubt. The high burden’s purpose is to insure accurate
factfinding. Jackson v. Virginia, 443 U.S. at 323 (“The question
whether a defendant has been convicted upon inadequate evidence
is central to the basic question of guilt or innocence. The
constitutional necessity of proof beyond a reasonable doubt is
9

not confined to those defendants who are morally blameless.”).
Thus, neither Schriro nor Ring govern the questions
presented here arising the decision in Hurst v. State. It held
that the statutorily identified facts that a judge had to find in
order to have the authority to impose a death sentence were
elements of a greater offense, and thus were subject Winship and
the beyond a reasonable doubt burden of proof.
5.

The BIO falsely claims that the “theory” underlying the
Petition “turns entirely on state law.”

Respondent avows that “Petitioner’s theory turns entirely on
state law.” (BIO at 8). This is because according to Respondent
“defining the elements of a crime is ‘essentially a question of
state law.’” (BIO at 10).
While the selection of the facts that when taken together
constitute a criminal offense is a matter of state law, that does
not give a state a license to violate the constitution. The Due
Process Clause requires the State to prove beyond a reasonable
doubt that each element of a criminal offense has been proven by
the State. Accordingly, whether a fact set out in a statute is an
element or a sentencing factor is matter of federal
constitutional law. In fact, that was the federal question at
issue in Apprendi v. New Jersey, 530 U.S. 466, 486 (2000):

10

We did not, however, there budge from the position that
(1) constitutional limits exist to States' authority to
define away facts necessary to constitute a criminal
offense, id., at 85-88, 106 S.Ct. 2411, and (2) that a
state scheme that keeps from the jury facts that
“expos[e] [defendants] to greater or additional
punishment,” id., at 88, 106 S.Ct. 2411, may raise
serious constitutional concern.
New Jersey provided that the possession of a firearm for an
unlawful purpose was a criminal offense subject imprisonment
between 5 and 10 years if the jury found that the State had
proven beyond a reasonable doubt each elements of the offense. A
separate statute gave the judge a means provided for an extended
term of imprisonment of 10 to 20 years if the trial judge finds,
by a preponderance of the evidence, that the defendant when
committing the criminal acted with the intent to intimidate an
individual because of their race, color, gender, handicap or
religion. After Apprendi was convicted of a criminal offense
which was subject to imprisonment for 5 to 10 years, the State
asked the judge for extend term of imprisonment. An evidentiary
hearing was conducted and the judge found by a preponderance of
the evidence that Apprendi’s actions were motivated by racial
bias and done with a purpose to intimidate. Relying on that
finding, the judge extended the term of imprisonment beyond the
10 year maximum permitted for the conviction and imposed a 12

11

year sentence. The question presented in Apprendi was whether the
fact the judge in order to extend the sentence beyond the
statutory maximum, was actually an element for purposes of the
Sixth Amendment and the Due Process Clause of the Fourteenth
Amendment. This Court ruled that the legislative labeling did not
control. Instead, what mattered was whether the additional fact
authorized a sentence that exceeded the maximum sentence he was
faced based upon the jury verdict alone:
[T]he relevant inquiry is one not of form, but of
effect-does the required finding expose the defendant
to a greater punishment than that authorized by the
jury's guilty verdict?
Apprendi, 530 U.S. at 494.
This Court set out a test for determining when the Sixth
Amendment and the Due Process Clause applied:
any fact that increases the penalty for a crime beyond
the prescribed statutory maximum must be submitted to a
jury, and proved beyond a reasonable doubt.
Id. at 490.
In Blakely v. Washington, 542 U.S. 296, 303-04 (2004), this
Court addressed Apprendi and explained that:
the relevant “statutory maximum” is not the maximum
sentence a judge may impose after finding additional
facts, but the maximum he may impose without any
additional findings. When a judge inflicts punishment
that the jury's verdict alone does not allow, the jury
has not found all the facts “which the law makes
12

essential to the punishment,” Bishop, supra, § 87, at
55, and the judge exceeds his proper authority.
In Hurst v. State, the Florida Supreme Court began its
analysis by looking to Apprendi and Blakely for guidance:
The Supreme Court made clear, as it had in Apprendi,
that the Sixth Amendment, in conjunction with the Due
Process clause, “requires that each element of a crime
be proved to a jury beyond a reasonable doubt.” Id. at
621 (citing Alleyne v. United States, ––– U.S. ––––,
133 S.Ct. 2151, 2156, 186 L.Ed.2d 314 (2013)). The
Court reiterated, as it had in Apprendi, “that any fact
that ‘expose[s] the defendant to a greater punishment
than that authorized by the jury's guilty verdict’ is
an ‘element’ that must be submitted to [the] jury.” Id.
(quoting Apprendi, 530 U.S. at 494, 120 S.Ct. 2348).
As Apprendi directs, the Florida Supreme Court examined the plain
language of the capital sentencing statute and held:
Thus, before a sentence of death may be considered by
the trial court in Florida, the jury must find the
existence of the aggravating factors proven beyond a
reasonable doubt, that the aggravating factors are
sufficient to impose death, and that the aggravating
factors outweigh the mitigating circumstances.
We also conclude that, just as elements of a crime must
be found unanimously by a Florida jury, all these
findings necessary for the jury to essentially convict
a defendant of capital murder—thus allowing imposition
of the death penalty—are also elements that must be
found unanimously by the jury. Thus, we hold that in
addition to unanimously finding the existence of any
aggravating factor, the jury must also unanimously find
that the aggravating factors are sufficient for the
imposition of death and unanimously find that the
aggravating factors outweigh the mitigation before a
sentence of death may be considered by the judge.

13

Hurst v. State, 202 So. 3d at 53-54.
The same day that Hurst v. State issued, the Florida Supreme
Court issued Perry v. State, 210 So. 3d 630 (Fla. 2016). There,
the Court reviewed the revisions to the Florida’s capital
sentencing statute that were enacted on March 17, 2016, shortly
after Hurst v. Florida issued. The revisions required the jury to
make the factual findings that previously had been for the judge
to make. However, the revised statute allowed the findings to be
made by less than a unanimous jury. In Perry v. State, the
Florida Supreme Court relied upon Hurst v. State and a less than
unanimous verdict was unconstitutional in a capital case. The
provision in the revised statute permitting a death
recommendation as long as 10 of the 12 jurors supported it, was
found to be unconstitutional. Perry v. State explained that:
the findings necessary to increase the penalty from a
mandatory life sentence to death must be found beyond a
reasonable doubt by a unanimous jury. Hurst, 202 So.3d
at 44–45. Those findings specifically include unanimity
as to all aggravating factors to be considered,
unanimity that sufficient aggravating factors exist for
the imposition of the death penalty, unanimity that the
aggravating factors outweigh the mitigating
circumstances, and unanimity in the final jury
recommendation for death. Id. at 53–54, 59–60.
Perry v. State, 210 So. 3d at 633 (emphasis added).
The State of Florida petitioned this Court to grant

14

certiorari review of the ruling in Hurst v. State. See Florida v.
Hurst, 137 S.Ct. 2161 (2017); Petition for Writ of Certiorari
filed in State of Florida v. Hurst, Case No. 16-998, 2017 WL
656209. The State of Florida asked this Court to grant the writ
in order to decide if the Florida Supreme Court decision had
misapplied Apprendi, i.e. whether federal law had been
misapplied. In its petition, the State affirmatively argued that
Hurst v. State did not rest on independent state law grounds. The
State argued that the decision was a misapplication of federal
law and thus subject to review by this Court:
[A] state court decision expressly adjudicating an
issue of federal law will evade this Court's review
only if that decision “clearly and expressly” indicates
that the ruling in question “is alternatively based on
bona fide separate, adequate, and independent grounds.”
Florida v. Powell, 559 U.S. 50, 57 (2010) (quotation
marks omitted). The Florida Supreme Court's dramatic
expansion of the constitutional jury-trial right - a
ruling that was articulated for the first time on
remand from this Court's Sixth Amendment decision, that
effectuates a 180-degree reversal of that court's
longstanding precedent, and that was announced in a
part of its opinion entitled, “EFFECT of HURST V.
FLORIDA ON FLORIDA'S CAPTIAL SENTENCING,” Pet. App. 12a
- does not come close to satisfying that demanding
standard.
Petition, Florida v. Hurst, Case No. 16-998, 2017 WL 656209 at
17.
6.

The BIO erroneously asserts that the Florida Supreme
Court’s decision in State v. Poole receding from Hurst
15

v. State precludes consideration of Mr. Reed’s
petition. However contrary to Respondent, the ruling in
Poole demonstrates a split within the Florida Supreme
Court as to how to apply Apprendi.
In State v. Poole, 297 So. 3d 487, 501 (Fla. 2020), the
Florida Supreme Court decided that it had erred in Hurst v. State
and was receding from its holding that the statutorily identified
facts that the judge was required to find before he could impose
a valid death sentence were elements of a higher degree of
murder. Poole did not dispute that the statute did not permit a
death sentence solely on the basis of the jury verdict convicting
the defendant of first degree murder. Poole recognized that the
statute required the judge to
set forth in writing its findings upon which the
sentence of death is based as to the facts:
(a) That sufficient aggravating circumstances exist as
enumerated in subsection (5), and
(b) That there are insufficient mitigating
circumstances to outweigh the aggravating
circumstances.
Section 921.141(3), Fla. Stat. The statute further provided that
if the judge’s findings were not made and reduced to writing
within 30 days of the rendition of the judgment and sentence, a
life sentence was mandated.
The Poole court recognized that Apprendi had provided the

16

test for determining whether the statutorily identified facts
that the judge was required to find in order for a death sentence
to be authorize are elements of a higher degree of murder. But,
it was in the Hurst application of the Apprendi that Poole found
error. In its analysis, Poole said:
The
are
the
the

section 921.141(3)(b) selection finding—“that there
insufficient mitigating circumstances to outweigh
aggravating circumstances”—fails both aspects of
Apprendi test.

State v. Poole, 297 So. 3d at 503. Unlike Hurst v. State, Poole
did not find the statute’s use of the word “fact” to mean “fact”
within the meaning of Apprendi:
We acknowledge that section 921.141(3)(b) requires a
judicial finding “as to the fact[ ]” that the
mitigators do not outweigh the aggravators. But the
legislature's use of a particular label is not what
drives the Sixth Amendment inquiry.
State v. Poole, 297 So. 3d at 503
Hurst v. State and State v. Poole show that there is/was a
split within the Florida Supreme Court over whether the word
“fact” as used in the statute was a “fact” for purposes of
Apprendi. Though at the moment it may seem that the ruling in
State v. Poole has prevailed, a closer look shows it is not so
clear.
Two months after Hurst v. State issued, the Florida Supreme

17

Court determined that Hurst v. State was partially retroactivity.
See Mosley v. State, 209 So. 3d 1248 (Fla. 2016). Death sentences
were overturned on direct appeal due to Hurst error, and death
senences were overturned in collateral proceedings due to Hurst
error. This occurred in both the Florida circuit courts and in
the Florida Supreme Court. By the time Poole issued about 3 years
after Hurst, 145 Florida death sentences had been overturned due
to the ruling in Hurst v. State. When Poole issued, there were 37
case in which life sentences were imposed and 8 cases with death
sentences and the remaining 100 cases that were pending a resentencing.
On the basis of Poole, prosecutors asked the Florida Supreme
Court to reinstate the death sentences. They argued that the
basis for the death sentences to have been vacated was Hurst v.
State, and Poole found Hurst v. State had been wrongly decided.
Though the Florida Supreme Court entertained the prosecutor’s
petitions, it ruled that it could not undo final rulings that had
granted resentencings due to Hurst error. See State v. Okafor,
306 So. 3d 930 (Fla. 2020); State v. Jackson, 306 So. 3d 936
(Fla. 2020). As a result, State v. Poole was not applied
retroactively. This left

Hurst v. State as the law of the case

in around 100 cases in which resentencings were order due to
18

error under Hurst v. State.
Whether or not there is a

split in the circuits, there is a

serious split in Florida law. The situation screams for this
Court’s resolution of the federal question this separates Hurt v.
State from State v. Poole.
7.

Florida’s substantive law was altered by Hurst v. State
ruling that statutorily identified facts were elements
of a higher degree of murder, and that ruling was
applied to cases with homicides committed prior 1986.

The question to ask is what is the criminal offense in
Florida for which death is an authorized sentence. Even though
the pertinent statutory language remained largely unchanged from
1973 until 2016, the answer varies from capital defendant. The
Florida Supreme Court has indicated on occasion that death is
authorized maximum penalty for first degree murder. Mills v.
Moore, 786 So. 2d 532 (Fla. 2001). It also has indicate it takes
a first degree murder conviction plus the finding of one
aggravating circumstance is required under the statute for the
elements to add to a criminal offense for which the death
sentence is authorized. State v. Steele, 921 So. 2d 538 (Fla.
2005). In Hurst v. State, the criminal offense for which death
was an available punishment was first first degree murder, plus
the finding of the aggravators, and determination that the

19

aggravators were sufficient.
Because Hurst relief was granted to individuals convicted
homicides committed in 1981, . See Card v. Jones, 219 So. 3d 47
(Fla. 2017); Johnson v. State, 205 So. 3d 1285 (Fla. 2016). That
means that as to those 1981 homicides, the sufficient of the
aggravating circumstances was an element of capital murder at the
time those 1981 murders. But that was not the criminal offense at
the time of the 1986 homicide in Petitioner’s case. What are the
elements for the crime punishable by death just keeps changing in
vioation of the Due Process Clause.
CONCLUSION
Based on the foregoing, Petitioner submits that certiorari review
of the questions presented set out in his petition is warranted.
Respectfully submitted,
/s/. Martin J. McClain
MARTIN J. McCLAIN
Florida Bar No. 0754773
COUNSEL FOR PETITIONER
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing petition has been
furnished by United States Mail, first class postage prepaid, to
all counsel of record on March 15, 2021.

20

/s/. Martin McClain
MARTIN J. MCCLAIN
Fla. Bar. No. 0754773
141 NE 30th Street
Wilton Manors, FL 33334
(305) 984-8344
martymcclain@comcast.net
Counsel for Petitioner

21

